           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement –                        Date:    April 27, 2009
           Agency Scans of the Department of
           Transportation’s Initial Implementation of the
           American Recovery and Reinvestment Act
           Project No. 09U3002M000

  From:                                                          Reply to
           David A. Dobbs                                        Attn. of:   J-2
           Deputy Inspector General

    To:    Secretarial Officers
           Heads of All Operating Administrations

           The Office of Inspector General (OIG) is undertaking an audit of the Department
           of Transportation’s (DOT) implementation of the American Recovery and
           Reinvestment Act of 2009 (ARRA), which designated more than $48 billion for
           infrastructure investments across several modes of transportation. Our work will
           consist of a series of structured reviews, or scans, conducted across the DOT
           agencies that received ARRA funding. This effort is part of our risk-based
           oversight strategy developed to help DOT address new management challenges
           presented by ARRA.

           Both the President and Congress have emphasized the need for accountability,
           efficiency, and transparency in the allocation, expenditure, and oversight of
           ARRA funds. In addition, the Office of Management and Budget (OMB) recently
           issued detailed guidance to Federal agencies to help ensure successful
           implementation of ARRA. We have assembled a team to conduct these reviews
           and have begun working with DOT officials to support and oversee their efforts to
           manage recovery program funds.

           Our objective is to evaluate each agency’s ARRA implementation by identifying
           vulnerabilities that could impede DOT’s ability to (1) provide effective oversight
           to ARRA-funded projects and (2) meet new requirements mandated by ARRA and
           OMB. We plan to report our results this summer and recommend any needed
           improvements. If in the course of our reviews we identify significant issues that
                                                                                 2


warrant immediate attention, we will issue interim ARRA advisories to ensure that
DOT, Congress, and the taxpayers receive timely and relevant information.

We will conduct our work at DOT offices and at the following Operating
Administrations: the Federal Aviation Administration, the Federal Highway
Administration, the Federal Railroad Administration, the Federal Transit
Administration, the Maritime Administration, and the Office of the Secretary of
Transportation. We plan to begin audit work immediately.

We will contact your audit liaisons to schedule entrance conferences as soon as
possible. If I can answer any questions or be of further assistance, please contact
me at (202) 366-6767 or Ann Calvaresi-Barr, Principal Assistant Inspector
General for Auditing and Evaluation, at (202) 366-1427.

                                        #

cc:   Martin Gertel, Audit Liaison, OST, M-1
      All Operating Administration Audit Liaisons
